Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




     Imaging Services for 

    Nursing Home Patients: 


          Medical Necessity




                    JUNE GIBBS BROWN
                              General

                        AUGUST 1997 -
                       OEI-O9-9500092
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This statutory
mission is carried out through a nationwide program of audits, investigations, inspections,
sanctions, and fraud alerts. The Inspector General informs the Secretary of program and
management problems and recommends legislative, regulatory, and operational approaches
to correct them.




                       Offke of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office 

of Inspector General. It conducts short-term management and program evaluations (called 

inspections) that focus on issues of concern to the Department, the Congress, and the 

public. The inspection reports provide findings and recommendations on the efficiency, 

vulnerability, and effectiveness of departmental programs. 


OEI’s San Francisco Regional Office prepared this report under the direction of 

Kaye D. Kidwell, Regional Inspector General, and Paul A. Gottlober, Deputy Regional 

Inspector General. Principal OEI staff included: 


REGION IX                                          HEADouARTEI2s

Brad Rollin, Project Leader                        Stuart Wright, Program Specialist 

Robert Gibbons, Project Leader 

Kathy Dezotte 

Don Loeb                                                            1-

ThomasPurvis 

Joseph Corso, Consultant 


To obtain a copy of this report, call the San Francisco Regional Office at 415437-7900.
                EXECUTIVE                                   SUMMARY

PURPOSE

This inspection determined the medical necessity of imaging services provided to residents
of nursing homes and paid by Medicare.

BACKGROUND

Nursing homes* arrange for ancillary services--such as x-rays and electrocardiograms
(EKGs)--for patients who require them. In some instances, firms known as potiable x-ray
suppliers provide x-ray and EKG services in nursing homes. ** According to Medicare
regulations, all imaging services must be ordered by a physician. To assess the medical
necessity of imaging services, we reviewed 729 imaging services that nursing home
patients received in 1994.

FINDINGS

Less than 2 percent of chest x-raysprovided to nursing home patients in 1994 were
medically unnecessary or undocumented

Of the $120 million that Medicare paid for chest x-rays during 1994, it paid less than
$1 million for medically unnecessary and undocumented services. The quality of portable
chest x-ray images is acceptable in more than 90 percent of cases.

In contrast to chest x-rays, 25 percent of EKGs provided to nursing home patients in
1994 were medically unnecessary or undocumented

In 1994, approximately 12 percent of EKGs were medically unnecessary, and in more
than 13 percent of cases, documentation was inadequate. Medicare’paid almost
$32 million for EKGs for nursing home patients in 1994. This included paying
$8.4 million for 194,000 medically unnecessary or undocumented EKGs. High volume
physicians and suppliers comprise a very small proportion of providers in general, but
they accounted for approximately 9 percent of all medically unnecessary and
undocumented EKGs in 1994. Portable suppliers are much more likely to be paid for
undocumented EKGs than non-portable suppliers.




      � For purposesof this inspection,  nursing homes refers to skilled nursing, Medicaid nursing, board and
care, assisted living, and retirement facilities.

       * Otheroptions for nursing facilities include providing the service with theii own equipment or
      � 

transporting patients to hospital outpatient departments, imaging centers, physician offices, or other facilities.


                                                        i
The HCFA should require that Medicare contractorsprofile high volume EKG suppliers
and physicians to determine if they routinely billfor medically unnecessary and
undocumented EKGs


AGENCY COMMENTS

We received comments on the draft report from HCFA and the Assistant Secretary for
Planning and Evaluation. Both HCFA and the Assistant Secretary for Planning and
Evaluation concurred with our recommendation. We have made minor clarifications in
the report in response to technical comments made by these agencies.




                                          ii
                     TABLE                      OF             CONTENTS

                                                                                                                      PAGE 


EXECUTIVE SUMMARY 


INTRODUCTION . . . . . . .             . . .     . . . . .      ........................                            . . . . .   1


FINDINGS . . . . . . . . . . . .       . . .     . . . . . . ........................                               . . . . . 6



 �    Medical necessity of chest x-rays . . . . 
               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     6

 �    Medical necessity of electrocardiograms 
                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     7


RECOMMENDATION               . . . . . . . . . . . . .
                                    ......................               9

APPENDICES 


A: OIG Medical Review Criteria . . . . . . . 
                  . . . . . . .              ....................           A-l

B: Confidence Intervals      ..........................................                                                   B-l

C: Agency Comments         ...........................................                                                    C-l
                                INTRODUCTION

PURPOSE

This inspection determined the medical necessity of imaging services provided to residents
of nursing homes and paid by Medicare.

BACKGROUND

Medicare (PartsA and B)

Congress enacted Medicare in 1965 to provide health services to the elderly and disabled. 

The program consists of two distinct parts. The first part is hospital insurance or Part A. 

Part A covers services furnished by providers, i.e., hospitals, home health agencies, and 

skilled nursing facilities. The second part, supplementary medical insurance or Part B, 

covers a wide range of medical services and supplies. These include physician services, 

outpatient hospital services, diagnostic laboratory tests, x-rays, ambulance services, and 

durable medical equipment. 


The Health Care Financing Administration (HCFA) administers Medicare and contracts 

with private insurance companies to process and pay claims. Contractors that process 

Part A claims are referred to as fiscal intermediaries. Contractors that process 

Part B claims are called carriers.’ Some companies have both fiscal intermediary and 

carrier contracts. 


The HCFA provides substam@ guidance to fiscal intermediaries and carriers on 

applicable laws, regulations, national polices, fee schedules, and other requirements. In 

some areas, federal law and HCFA allow the fiscal intermediaries and carriers latitude in 

determining both coverage and reimbursement. 


Skilled Nursing Facilities and Other Extended Care Facilities

The Medicare program provides coverage under Part A for skilled nursing services but
not for custodial care. The skilled nursing benefit includes:

   b    nursing care, 

   b    bed and board, 

   b    physical, occupational, and speech therapy, 

   b    medical social services, and 

   b    drugs, biologicals, supplies, appliances, and equipment for use in the facility. 





               ’ An exception to this general rule is that fiscal intermediaries prockss Part B claims submitted
by hospitals (for inpatient and outpatient services), home health agencies, and skilled nursing facilities.
Medicare law stipulates that beneficiaries are eligible for skilled nursing benefits if they
are transferred to the skilled nursing facility after a minimum 3day covered stay in an
acute hospital. The patient must require skilled nursing care, and a physician must order
the services. Part A covers skilled nursing services for up to 100 days per “spell of
illness. ”

In addition to skilled nursing facilities, other facilities offer varying levels of care for
Medicare beneficiaries. These include Medicaid nursing, board and care, assisted living,
and retirement facilities. We have included all of these facilities in the scope of this
inspection and refer to them collectivelyas “nursing homes. ”

Imaging services to nursing home residents

Nursing homes frequently provide directly or arrange for ancillary services--such as x­
rays--for their patients who require them. Imaging services include radiography (x-ray),
magnetic resonance imaging (MRI), computerized axial tomography (CAT scan),
echography (ultrasound), and cardiac catheterization. For purposes of this inspection,
electrocardiographic (ERG) services are included as imaging services.

In some instances, firms known as portable x-ray suppliers provide x-rays and ERGS to
nursing home residents. 2 Medicare’s portable x-ray benefit covers skeletal films of the
arms, legs, pelvis, vertebral column, and skull as well as chest and abdominal films that
do not use contrast media. Medicare also covers EKGs under the portable benefit, if they
are medically necessary and are performed by certified portable x-ray suppliers. All of
these services must be diagnostic rather than therapeutic. Portable x-ray suppliers must
meet HCFA’s conditions of participation. These conditions require, among other things,
that suppliers comply with State and local laws, which may provide for the licensing and
regulation of portable suppliers.

Billing for imaging services

Imaging services provided to nursing home patients are billed to the f=cal intermediary or
the carrier depending on which entity provides the service and whether there is any
financial arrangement between the service provider and a skilled nursing facility. In all
cases, a physician may bill the Part B carrier for interpreting an imaging procedure. For
a full discussion of billing options and practices, see the companion report “Portable
Imaging Services: A Costly Option” (OEI-O9-9500090).

OperationRestore Trust

In May 1995, President Clinton and Health and Human Services Secretary Donna Shalala
announced the kickoff of Operation Restore Trust (ORT), a new health care anti-fraud



         ’ Other options for musing facilities include providing the service with their own equipment or
transportingpatientsto hospital outpatient departments, imaging centers, physician offices, or other facilities.
initiative. The ORT is a crackdown on Medicare and Medicaid fraud, waste, and abuse in
home health agencies, nursing homes, and durable medical equipment suppliers. The
ORT focuses on the five states--California, New York, Florida, Texas, and Illinois--that
account for 40 percent of the nation’s Mdicare beneficiaries and program expenditures.

The ORT includes Federal and State agencies in collaboration with the private sector and
beneficiaries. The federal agencies involved include the Office of Inspector General
(OIG), HCFA, and the Administration on Aging. The OIG has undertaken a number of
national program inspections aimed at identifying and eliminating systemic weaknesses
that allow fraud, waste, and abuse to occur in the areas of home health, nursing homes,
and durable medical equipment. This inspection was conducted as part of ORT.

This report is the last in a series of three reports prepared by the OIG on imaging services
for nursing home patients. The first report, “Portable Imaging Services: A Costly
-Option” (OEI-09-95-00090), determined how different billing practices, financial
arrangements, and clinical settings affect the cost of imaging services for the Medicare
program and its beneficiaries. The second report, “Portable Imaging Services: Nursing
Home Perspectives” (OEI-O9-95-ooO91), determined when, how, and why nursing homes
use portable imaging services for their patients.

METHODOLOGY

Sample Selection

From a 1 percent Common Working File database, we extracted data on all beneficiaries
who were in a nursing home at any time during 1994. We then extracted claims data on
all imaging services provided to these beneficiaries.

We identified nursing home residents through a number of indicators in the claims data.
These indicators included place of service, hospital discharge destination, skilled nursing
claims, and HCFA Common Procedure Codii System (HCPCS) codes that are likely to
correspond to a nursing home resident (such as transportation of portable x-ray
equipment). Based on a pre-test of this approach, we estimate that our database included
more than 95 percent of all nursing home residents who received imaging services. From
this database, we selected a stratified sample:
                                    Stratum

                                   All or part billed   ORT States           53
                                   by skilled nursing
                                   facility             Non-ORT States       32

                                   Billed directly by   ORT States          134
                                   supplier or other
                                   service provider     Non-ORT States       60
                                                        ORT States          143
         EKGs (HCPCS= 93000 through 93010)
                                                        Non-ORT States       65

         CAT scans and MRIs                             ORT States          167
         (numerous HCPCS codes)                         Non-ORT States       75

When there was no skilled nursing facility claim that could be associated with an imaging
service, we verified that the beneficiary was a nursing home resident by contacting
physicians, portable suppliers, and nursing homes. We excluded beneficiaries from the
sample who did not reside in skilled nursing, Medicaid nursing, board and care, assisted
living, or retirement facilities when the service was rendered.

Medical Record Request

For all claims, we requested medical records and original x-rays, EKGs, MRIs, and 

CAT scans. We requested information from all entities involved in providing the service. 

These included nursing homes, physicians, hospitals, portable x-ray suppliers, and 

independent laboratories. We specifically requested: 


  �    the physician’s order for the procedure, including documentation of the need for
       portable x-ray or EKG services (if applicable);
  �    ‘the original x-ray, MRI or CAT scan film,’ or EKG;
  �    the written interpretation of the procedure;
  �    the patient’s history; and
  0    any other progress notes, nurses’ assessments, and medication records for the week
       up to and including the date of the procedure.

Medical Review Screening Instrument

With the assistance of a medical review contractor, we developed screening instruments
based on appropriateness criteria from the American College of Radiology and the
American College of Cardiology: We developed separate screening instruments for
each imaging procedure. Only those procedures that failed to meet the screening
instrument criteria were sent to the medical review contractor for further analysis.



                                              4

In no instances did OIG reviewers determine that a case was medically unnecessary.
Appendix A contains the screening criteria for chest x-rays and EKGs.

Medical Review Process

The contractor developed its own medical review protocol. Depending on the result of the
OIG screening, the type of imaging service, and the setting in which it was provided,
the review included (1) medical necessity and appropriateness, (2) quality of care,
(3) assessment of the need for portable services, and/or (4) assessment of chest x-ray
fihn quality.

Initially, this inspection included MRIs and CAT scans. We discontinued the medical
review of these procedures after the medical review contractor determined that, based on a
sample of cases, almost all of these services were medically necessary. Continued
medical review would have been costly and unproductive.




                                                                  .




                               ,
                                 FINDINGS 





Of the $120 million that Medicare paid for chest x-rays during 1994, it paid less than
$I million for medically unnecessary and undocumented chest x-rays

Chest x-rays are a routine diagnostic procedure used by physicians to rule out or diagnose
numerous conditions in elderly patients. Physicians can justify ordering a chest x-ray
when a nursing home patient has a respiratory problem that might be considered minor for
the general population. The results of our medical review confirm this. As the following
table shows, based on our projections, almost all chest x-rays rendered in 1994 were
determined to be medically necessary:

               The High Percentage of Medically Necessary Chest X-rays
                Illustrates Its Acceptance and Use as a Diagnostic Tool


        Total number of chest x-rays in 1994                             1,677,530
        Percent Medically Necessary per Screening Instrument               40.9
        Criteria
        Percent Medically Necessary per Medical Review Contractor          57.8
        Percent Medically Unnecessary                                       1.0
        Percent Inadequate Documentation                                    0.4
                                                                    .*
Approximately 41 percent of chest x-rays met the screening instrument criteria for medical
necessity. In 58 percent of cases, information in patients’ medical records did not meet
the basic criteria, but medical reviewers determined that the services were necessary and
appropriate. In these cases, beneficiaries exhibited different or less severe symptoms than
those that were determined to be medically necessary via the screening instrument. The
medical reviewers also determined that beneficiaries who received multiple chest x-rays in
a short period of time received appropriate services.

Overall, carriers and our medical review contractor agreed that chest x-rays are
appropriate for diagnosing numerous conditions. One carrier manual lists four pages of
diagnoses that would justify the need for a chest x-ray. The list includes numerous
cardiovascular and respiratory conditions as well as common nursing home patient
problems such as cancer, stroke, asthma, diabetes, difficulty swallowing, senile
degeneration, and weight loss.



                                            6

 The quality of portable chest x-ray images is acceptable in more than 90 percent of cases

Some critics have questioned the quality of portable chest x-ray images because of the
difficulty of positioning bed-ridden patients. In our companion reports on portable
imaging services, we noted that using a portable supplier for non-emergency chest x-rays
and EKGs has become routine for sampled nursing homes. Portable suppliers provide
more than 60 percent of all chest x-rays for nursing home patients.

 Film quality was acceptable for almost all portable chest x-rays. In most of the cases
 where the medical reviewer deemed the quality unacceptable, the technician had failed to
 include left and right markers on the image. There were almost no cases where the image
 was unreadable.




In 1994, approximately 12 percent of EKGs were medically unnecessary, and in more
than 13 percent of cases, documentation was inadequate

 In 1994, Medicare paid almost $32 million for EKGs for nursing home patients. This
 included paying $8.4 million for 194,000 medically unnecessary or undocumented EKGs.
 Medicare paid for these services because EKGs are not a costly procedure and are a low
 priority for medical review. The table below summarizes the medical review findings
 projected nationally:

                            EKGs Are Frequently Questionable


         Total number of EKGs in 1994                                3’    772,836




                                                                                      I

         Percent Medically Necessary per Screening Instrument                24.2
         Criteria
         Percent Medically Necessary per Medical Review Contractor           50.7 


         Percent Medically Unnecessary                                       11.9 

         Percent Inadequate Documentation                                    13.3

  In the medically u~ecessary    cases, the medical review contractor determined that the
. EKG served no useful diagnostic purpose. The table on the following page illustrates a
  few typical cases. It shows that nursing homes, physicians, and/or suppliers (1) falsify or
  miscode diagnosis codes, (2) do not have adequate documentation to support providing the
  service, or (3) inappropriately provide EKGs.
           Medical Review Shows the Nature of Medically Unnecessary EKGs


 I
 Patient      Diagnosis on Claim                    Medical ReviewFinding

     #l     Hyperlipidemia            EKG was done to evaluatehyperlipidemia. EKG
                                      is not a testfor hyperlipidemia.
     #2     Premature Beats           Nothing in the medical record indicatesthat
                                      rhythmwas a problem.
     #3     Cardiac Arrest            Patientwas deceased--EKG was a flatline.
     #4     Cerebrovascular           No reasonfor EKG. Recentlydischargedfrom
            Accident                  hospitalwhere EKG wasprobab& done.
     #5     Congestive Heart          Medical record showsno rationalefor requesting
            Failure                   an EKG.
     #6     Acute Cystitis            No reasons listed in medical record for an EKG.

Physicians and portable suppliers who provide more EKGs per beneficiary than other
providers are far more likely to provide medically unnecessary EKGs

Physicians or suppliers who bill for more than four EKGs per beneficiary per year
comprise a very small proportion of providers in general, but they accounted for
approximately 9 percent of all medically unnecessary and undocumented EKGs in 1994.
On average, most physicians and portable suppliers who provide and interpret EKGs do so
for beneficiaries who receive one or two EKGs per year. Some physicians and portable
suppliers, however, provide or interpret far more per beneficiary. One supplier, for
example, provided an average of 27 EXGs for each of its beneficiaries in 1994. While bi­
weekly EKGs might be appropriate in special instances, this average is extreme.

One carrier recouped thousands of dollars that it had paid a physician in our sample for
ordering and interpreting routine EKGs. As a result of this inspection, we referred a
physician and a portable supplier to the Office of Investigations.

Portable suppliers are much more likely to be paid for undocumented EKGs than non-
portable suppliers

In 1994, more than 28 percent of portable EKGs were not justified in the medical records,
while only 3 percent performed by non-portable suppliers lacked appropriate
documentation. The rates of medically unnecessary EKGs were similar for both portable
and non-portable suppliers. Portable suppliers provided more than one-third of EKGs for
nursing home patients in 1994.

We found no significant difference in the rates of medically u~ecessary or undocumented
EKGs between the five Operation Restore Trust States and the rest of the country.



                                            8

The HCFA should require that Medicare contractors profile high volume
EKG suppliers and physicians to determine if they routinely bill for medically
unnecessary and undocumented EKGs

Suppliers and physicians who provide an average of more than four EKGs per beneficiary
annually are more likely to be providing medically unnecessary or undocumented services
than suppliers and physicians who provide one or two EKGs per beneficiary. Eliminating
inappropriate billing by these providers would save Medicare less than $1 million
annually, but it would reduce or eliminate payments to providers who routinely bill for
medically u~ecessq      EKGs.


AGENCY COMMENTS

We received comments on the draft report from HCFA and the Assistant Secretary for
Planning and Evaluation. Both HCFA and the Assistant Secretary for Planning and
Evaluation concurred with our recommendation that Medicare contractors profile high
volume EKG suppliers and physicians. In addition, HCFA noted that it has eliminated
coverage and payment for EKGs under the portable x-ray benefit and now requires that all
Medicare tests be ordered by the patient’s treating physician.

Both HCFA and the Assistant Secretary for Planning and Evaluation commented that the
use of the term “nursing facility” in the draft report was confusing. In response, we have
revised the report to refer to sampled facilities as “nursing homes.” These include skilled
nursing, Medicaid nursing, board and care, assisted living, or retirement facilities. Where
appropriate, we differentiate between skilled nursing facilities and other nursing homes
included in the study.
                                                                       .
The HCFA commented that our discussion of the skilled nursing benefit was too vague.
Since neither of our findings pertains specifically to skilled nursing facilities, the purpose
of describing these facilities in the background was simply to establish that they are
defined specifically in the Medicare law. The companion reports “Portable Imaging
Services: A Costly Option” (OEI-O9-9540090) and “Portable Imaging Services: Nursing
Home Perspectives” (OEI-O9-95-00091) contain a more detailed description of the skilled
nursing benefit.

See appendix C for the full text of the agencies’ comments.




                                             9

                                APPENDIX                  A

                            OIG MEDICAL REVIEW CRITERIA

                    Diagnoses/symptoms necessary for OIG reviewer to deem
                             CHEST X-RAYS medically necessary:


Cardiovascular                              Pulmonary

Angina                                      Bronchopneumonia 

Aortic valve disease or injury 
            Cancer 

Arrhythmia 
                                Cough with hemorrhage 

Atria1 fibrillation 
                       Emphysema 

Atria1 tachycardia 
                        Lung abscess 

Cardiac disease 
                           Shortness of breath 

Cardiovascular system symptoms 
            Tuberculosis 

Chest pain 
                                Upper respiratory infection 

Heart disease 

Ischemic heart disease 

Myocardial infarction 


OTHER

Cerebrovascular accident 

Choking 

Coma 

Diabetes 

Fracture of clavicle, collarbone, coronoid process, larynx, rib, scapula, shoulder blade,
                                                                     .a
       SttXllUlll

Hernia 

Malignant neoplasm (any) 

Scoliosis 

Septicemia 

Stroke 

Syncope 


Other criteria that must be met in addition to diagnoses/symptoms:

   b   Service does not appear to be a routine preoperative screen.
   b   Service does not appear to be a follow-up, performed less than 14 days after
       another chest x-ray.
   b 	 Service is a follow-up, less than 14 days after prior chest x-ray, but beneficiary is
       on ventilator or has congestive heart failure, pneumonia, or pulmonary congestion,
       and beneficiary is experiencing new symptoms.


                                           A-l
               Diagnoses/symptoms necessary for OIG reviewer to deem
                             EKGs medically necessary:


Arrhythmia 

Angina 

Arteriosclerosis 

Atria1 fibrillation or flutter 

Bradycardia 

Cerebrovascular accident 

Complication of pacemaker 

Congestive heart failure 

Coronary artery embolism, sclerosis, or rupture 

Heart disease 

Myocardial infarction 

Permanent pacemaker 

Respiratory failure 

Syncope 

Tachycardia 


Other criteria that must be met in addition to diagnoses/symptoms:

  b    Service was not a follow-up EKG performed less than 14 days after another EKG.
  b    Service was a follow-up EKG performed less than 14 days after another EKG, but
       beneficiary was experiencing new symptoms.




                                          A-2 

                               APPENDIX                      B

The following tables show the point estimates and 95 percent confidence intervals for
selected statistics in the order they appear in the report.


 statistic
                                         Point estimate                     95 percent
                                                                        confidence interval

 Percent of nursing home residents’ 1994 chest x-rays that were medically unnecessary or
 undocumented

                                  I-        1.3 percent          I    0.2 percent - 2.5 percent

 Amount Medicare paid for chest x-rays provided to nursing home residents during 1994

                                 I---     $1 19,843,868          I   $98,572,561 - $141,115,174
 Amount Medicare paid for medically unnecessary or undocumented chest x-rays provided to
 nursing home residents during 1994

                                            $957.736                    $35,271 - $1,880,200

 Total number of chest x-rays provided to nursing home residents during 1994

                                            1,677,530                   1,531,153 - 1,823,906

 Percent of nursing home residents’ 1994 portable chest x-rays that had an acceptable quality
 image

                                           92.0 percent              85.6 percent - 98.5 percent

 Percent of nursing home residents’ 1994 chest x-rays that were portable

                                           61.6 percent              52.8 percent - 70.4 percent
 Percent of nursing home residents’ 1994 EKGs that were medically unnecessary or
 undocumented

                                  I        25.1 percent              16.5 percent - 33.8 percent

 Percent of nursing home residents’ 1994 EKGs that were medically unnecessary
                                  I                          I
                                  I       11.9 percent       I    5.7 percent - 18.1 percent

  Percent of nursing home residents’ 1994 EKGs that were undocumented

                                           13.3 percent               6.6 percent - 19.9 percent

  Amount Medicare paid for. EKGs provided to nursing home residents during 1994

                                  I        $3 1,764,242              $23,294,925 - $40,233,559




                                             B-l
     statistic 

                                            Point estimate                     95 percent
                                                                           confidence interval

     Amount Medicare paid for medically unnecessary or undocumented EKGs provided to nursing
     home residents during 1994
                                              $8,362,146                $4,564,525 - $12,159,766

     Total number of medically unnecessary or undocumented EKGs provided to nursing home
     residents during 1994
                                                194,234                     127,246 - 261,221

11Total number of EKGs provided to nursing home residents during 1994                                 II

II                                                                          651,801 - 893,871

II Percent of medically unnecessary or undocumented EKGs that were provided by physicians and II

II
II
   suppliers with an average of 4 or more EKGs per benefkkry during 1994
                                    I
                                    I       9.4 nercent
                                                              I
                                                              I    1.O uercent - 17.9 percent
                                                                                              II
                                                                                              II
IIPercent    of nortable EKGs that were undocumented                                                  II

II                                            28.2. percent             12.7 percent - 43.6 percent
                                                                                                      II
IIPercent    of non-sortable EKGs that were undocumented                                              II
                                              3.3 percent                0.4 percent - 6.2 percent

     Percent of nursinrr home residents’ 1994 EKGs that were nortable
                                              35.3 percent              25.1 percent - 45.5 percent

     Percent of EKGs provided to nursing home residents in ORT States in 1994 that were
     medically unnecessary or undocumented                                ..
                                              26.6 percent              17.0 percent - 36.2 percent

     Percent of EKGs provided to nursing home residents in non-ORT States in 1994 that were
     medically unnecessary or undocumented
                                              24.2 percent              11.5 percent - 36.9 percent




                                               B-2 

                           APPENDIX                           C

                                AGENCY COMMENTS

                         Health Care Financing Administration



                                                                     Health Care
      DEPARTMENT OF HEALTH & HUMAN SERVICES                          FinancingAUministration


                                                                      Memorandum
DATE:            JON27 I997

TO:          Juae Gibbs Brown




SUBJECT: 	 Office of Inspector General (OIG) Draft Report: “ImagingServices for
           Nursing Home Patients: MedicaINecessity,” (OEI-O9-95-00092)


We reviewed the above-referenced report concerning the iuedical necessity of imaging
services provided to residents of mrning facilities and paid by Medicare.

Our detailed comments are attached for your consideration- Thank you for the
opporhmity to review and comment on this report

                                    \
Attachment




                                         C-l
                  Health Care Financine AdministrationIHCFA) Comments on
                   ; ffi            or
               e”    -    ervi s for ursitr
                                       J0EI-0!9-95-ooo92_1


    OIG Recommendation 

    HCFA should require that Medicare con&actorsprofile high volume elecnocardiogram 

    (EKG) suppliers and physicians to determine ifthey routinely bill for medically 

    umeccssary and undocumented EKG& 


I   fICPA Resuons 

    Weconcur. d rccommendationappearsto0beasassumingtiMticare 

    contractarsha~themedicalnviewandbadget~o~tocanryitoutinacost­

    effective manna. We believe that two recent mgulation changes implementedhy HCFA 

    cd%ctiw January 1, will have the efiket of reducing the dimensionsof the problem of 

    Medicare paying for medically unnecessary and undocmnentadEKG Setvices-espekKy 

    for those furnished by portable x-ray suppliers. The first change invokd the ehmination 

    of coverage and payment for EKGs under the portable x-ray benefit The second change 

    was the catablishmentof the requirement that in order to be considered medically 

    necessary all Medicare tests (imcludingEKG@must be ordered by the patient’s treating 

    physician. Since these two improvements in the Medicare regulationshave only been in 

    effect for a short period of time, it is too early to lmow how helpful they will be in 

    reducing the problem OIG identified. However, we believe the long-nm impact of these 

    recent HCFA actions will be very favorable. 


    HCFA’s goals are to ensure high quality health care, and to pay for services that are 

    reasonable and medically mxisary. HCFA has talcenappropriate steps to target 

    vuhemble areas in the Medicare prugran~ Medicare contractors conduct focused 

    medicalreview(I;uR)onrmongoingbasistoensurethatservicespaidforbyMedicare 

    are reasonable and appropriate. ‘Ihe FMR process allows contmetors to perform data 

    analysistfiatallowsthem~identifyaberrantpa#ernsindatathatassistint;argetinghigh 

    volume suppliers and physicians that are possibly bii      routinely for services that are 

    medically uunecessiiry. The eontractors use system edi& internal medieal review 

    gaidclines, or medical review policies to target and limit abusive behavior. Qrrently, 

    approximately 46 Medicarecormdon haveeditsinplacewithsetparametersrelatingto 

    EKG services. 


    Medicare eontractors are also curreutly using Provider Audit List&s (PAL) that profile 

    providers that have been flagged for submittingerroneous or inappropriateclaims on a 

    eontimral basis. Claims submitted by these providers are automaticallysuspended in 

    order to allow the contractor an opportunity to eonduct medical review and make a 





                                                c-2
Page 2 


payment determination. Use of the PAL in conjunction with FMR have resulted in 

dramatic savingsto the Medicareprogram As a result, our current data shows a 

4 percent increase in claim denials, 6 percent decrease in Medicare reimbmsement, 

6 percent~decreasein allowed charges, and a 7 percent decrease in allowed services. We 

believe the contractors have been very effective in using these mechanismsto ident@ 

Medicare dollars at risk, and target high vohune physicians and suppliers. 


Additional Comments 

The term nursing facility utilized throughoutthis report is misleading. Current Federal 

regulations d&ingukh between two types of long-term care (LTC) facilities: a nursing 

fkcilify @IF)under the Medicaidprogram and a skilled numingfacility (SNF) under the 

Medicare program. We suggestthat the tam LTC facility replace the words nursing 

fhility throughout this report when refhing to a generic musing home. If a policy or 

concern specifically relates to a Medicare SNP or a MedicaidNF, it should be so noted. 


The definition of the SNF‘benefit that appears in the Backgroundis too general. We 

suggest that it be more specific. The SNF benefit is referred to as post-hospital extended 

care services. It is designed to assistpersons who have had a 3day qualifying hospital 

stay and require skilled services on adaily basis to recuperate from an acute episode. 

Coverage, if approved, is limited to a total of 100days per benefit period. On the 21st 

day the beneficiary becomes responsiblefor a daily coinsurance amount equal to one-

eighth of the inpatient hospital deductible, as prescribed by law. 





                                          c-3
           Assistant Secretary for Planning and Evaluation


      DEPARTMENT   OF HEALTH & HUNAN    SERVICES 	                 mceol*secmsv


                                                                   wn(ington. DC. zo201

                                    ~19l997

To:        June Gibbs Brown


FROM:      David F Garrison



           OlG m   Rqxxt on Imaging Swiccs for Nursing Home Residents ­
           coNcuRwITHcGMMENT              ffi/-L%qt5ooo9s7




                                  c-4
